No.

IN THE
SUPREME COURT OF THE UNITED STATES

OLEN WARE. II
(Your Name)

—PETITIONER

vs.

BOBBY LUMPKINS, DIRECTOR. TD€dRESPONDENT(S)

PROOF OF SERVICE
_______, do swear or declare that on this date,
, as required by U.S. Supreme Court Rule 29,1 have served
the enclosed MOTION FOR LEAVE TO PROCEED INFORMA PA XJPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
I,

OLEN WARE. II
,20.

The names and addresses of those served are as follows:
RESPONDENT BOBBY LUMPKINS. DIRECTOR. TDCJ. P.O. BOX 99. HUNTSVILLE. TEXAS 77320

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

US''

L u
(Signature)
OLEN WARE, II, PETITIONER, PRO SE

